               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-02640-06




    Combined Assessment Program 

           Review of the 

       VA Greater Los Angeles 

         Healthcare System 

       Los Angeles, California 





October 30, 2013

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                        CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA



                                               Glossary
                 CAP             Combined Assessment Program
                 CLC             community living center
                 CS              controlled substances
                 EHR             electronic health record
                 EOC             environment of care
                 facility        VA Greater Los Angeles Healthcare System
                 FPPE            Focused Professional Practice Evaluation
                 FY              fiscal year
                 HPC             hospice and palliative care
                 MEC             Medical Executive Committee
                 MH              mental health
                 MRC             Medical Records Committee
                 NA              not applicable
                 NC              noncompliant
                 OIG             Office of Inspector General
                 PCCT            Palliative Care Consult Team
                 PRC             Peer Review Committee
                 QM              quality management
                 RME             reusable medical equipment
                 SPS             Sterile Processing Service
                 VHA             Veterans Health Administration
                 VISN            Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                              CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       4

  QM ..........................................................................................................................    4

  EOC ........................................................................................................................     7

  Medication Management – CS Inspections .............................................................                            10

  Coordination of Care – HPC ...................................................................................                  13

  Pressure Ulcer Prevention and Management .........................................................                              15

  Nurse Staffing .........................................................................................................        17

  MH Residential Rehabilitation Treatment Program .................................................                               18


Review Activity with Previous CAP Recommendations ......................................... 20

  Follow-Up on EOC Issues ....................................................................................... 20


Appendixes
  A. Facility Profile ....................................................................................................        21

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                                 22

  C. VISN Director Comments ..................................................................................                    23

  D. Facility Director Comments ...............................................................................                   24

  E. OIG Contact and Staff Acknowledgments .........................................................                              33

  F. Report Distribution .............................................................................................            34

  G. Endnotes ...........................................................................................................         35





VA OIG Office of Healthcare Inspections
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
August 19, 2013.

Review Results: The review covered seven activities and one follow-up review area
from the previous Combined Assessment Program review.                           We made no
recommendations in the following activity:

   Mental Health Residential Rehabilitation Treatment Program

The facility’s reported accomplishments were the primary care – mental health
integration program, a solar energy program, and a virtual pain management program.

Recommendations: We made recommendations in the following six activities and
follow-up review area:

Quality Management: Consistently complete peer review actions, and report them to the
Peer Review Committee. Present quarterly summary reports to the Medical Executive
Committee. Consistently report Focused Professional Practice Evaluation results to the
Professional Standards Board. Revise the local observation bed policy to include that
each observation patient must have a focused goal for the observation period and that
each admission must have a limited severity of illness. Consistently perform continued
stay reviews on at least 75 percent of patients in acute beds. Ensure the Cardiac Arrest
Committee reviews each code episode. Require the Medical Records Committee to
provide oversight and coordination of the review of the quality of electronic health record
entries. Continue the recently implemented process for scanning non-VA purchased
care results. Ensure that surgery and anesthesia representatives consistently attend
Blood Usage Committee meetings and that results of proficiency testing and inspections
by government and private entities are routinely reported to the committee.
Consistently follow actions taken when data analyses indicated problems or
opportunities for improvement to resolution in the Inpatient Operations Council, Medical
Executive Committee, and Medical Records Committee.

Environment of Care: Ensure ventilation system covers are clean, housekeeping closets
and soiled utility rooms are locked, and emergency call system cords are functional.
Repair the laminate and floor in hemodialysis. Maintain Sterile Processing Service
sterile storage area humidity within acceptable levels.

Medication Management – Controlled Substances Inspections: Amend facility policy to
include elements required by Veterans Health Administration policy related to physical
counts of automated dispensing units, quarterly trend reports, and pharmacy drug
destruction. Take actions to address and correct deficiencies identified during annual
physical security surveys. Consistently reconcile 1 day’s dispensing from the pharmacy


VA OIG Office of Healthcare Inspections                                                          i
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


to each automated unit. Perform weekly inventory verifications of automated dispensing
machines. Complete and provide quarterly trend reports to the facility Director. Ensure
that all controlled substances inspectors have required certification and that they
receive annual updates and/or refresher training. Require that inspectors do not exceed
the 3-year term limit and are given a 1-year hiatus before being reappointed. Ensure
that all required non-pharmacy areas with controlled substances and all pharmacy
areas are inspected monthly. Perform drug destruction and audit trail verification.
Consider consulting with Pharmacy Benefits Management to ensure the controlled
substances inspection program complies with Veterans Health Administration policy.

Coordination of Care – Hospice and Palliative Care: Ensure all non-hospice and
palliative care clinical staff who provide care to patients at the end of their lives receive
end-of-life training.

Pressure Ulcer Prevention and Management: Accurately document location, stage,
and/or risk scale score for all patients with pressure ulcers. Ensure all discharged
pressure ulcer patients have wound care follow-up plans and receive dressing supplies
prior to being discharged.

Nurse Staffing: Reassess the target nursing hours per patient day for unit 213-2 to more
accurately plan for staffing and evaluate the actual staffing provided.

Follow-Up on Environment of Care Issues: Ensure that all designated employees
complete annual N95 respirator fit testing and that all employees who work on locked
mental health units complete annual environmental hazards training.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 23–32, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following seven activities
and follow-up review area from the previous CAP review:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Pressure Ulcer Prevention and Management

   	   Nurse Staffing

   	   MH Residential Rehabilitation Treatment Program

   	   Follow-Up on EOC Issues

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
August 19, 2013, and was done in accordance with OIG standard operating procedures
for CAP reviews.     We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment
Program Review of the VA Greater Los Angeles Healthcare System, Los Angeles,



VA OIG Office of Healthcare Inspections                                                         1
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


California, Report No.10-01438-231,            August    24,   2010).      We     made    repeat
recommendations in QM and EOC.

During this review, we presented crime awareness briefings for 579 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
566 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                        Reported Accomplishments 

Primary Care – MH Integration Program
The goal of the program is to deliver integrated medical and MH care to patients in the
outpatient setting under a patient centered care model. The program provides same
day access to patients when they come for their appointments, follow-up care until
stabilization, ongoing provider consultation and education, and continued coverage
during psychiatric emergencies. It also provides a large variety of evidence-based
psychotherapy interventions at both the individual and group levels that have resulted in
improved outcomes. A great majority of consults are now handled through primary care.
The program’s main operational principles are integration, open access, and continuity
of care.

Going Green – The Solar Energy Program
The facility has successfully interconnected a majority of the solar panels installed to the
electrical distribution systems at three campuses—West Los Angeles, Sepulveda, and
the Los Angeles Ambulatory Care Center. The project to install carport, rooftop, and
ground level solar panels was entirely funded by VA, and the estimated savings to the
facility is $1.64 million annually.

The project is not yet complete. Additional carport solar panels will be installed at the
West Los Angeles campus, and ground level solar panels are planned for the
Sepulveda campus. The facility’s solar energy program, combined with another large
ongoing energy conservation project, makes it the “green energy” showcase facility for
the entire VA.




VA OIG Office of Healthcare Inspections                                                         2
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


Virtual Pain Management Program
The facility’s Pain Management Service provides comprehensive pain management to
all veterans across various settings. Through inpatient consultation, post-operative
care, and discharge to outpatient or other transitional care settings, the service attempts
to provide coordinated pain management across the health care continuum.

The facility’s newest program is the Specialty Care Access Network Extension of
Community Healthcare Outcomes Pain Video and Teleconference that connects remote
community based outpatient clinic providers with the facility’s pain management
specialists. The primary goals of the program are to provide improved collaboration
between pain specialists and primary care providers, increase access to pain
treatments and education, and reduce unnecessary travel for veterans requiring this
specialty service. This program has been extremely successful, especially in clinics that
are approximately a 4 to 5 hour drive for veterans. Several innovations have promoted
this form of virtual care, including the development of musculoskeletal examination
videos, brief mini-residency in physical examination and training, and promotion of a
pain management SharePoint site that is used by primary care providers for educational
materials, quick access to data, and conversion charts for narcotic tables.




VA OIG Office of Healthcare Inspections                                                         3
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
 X     Corrective actions from the protected peer        Six months of PRC meeting minutes reviewed:
       review process were reported to the PRC.           Of the three actions expected to be
                                                            completed, two were not reported to the PRC.
 X     FPPEs for newly hired licensed independent        Twenty-three profiles reviewed:
       practitioners complied with selected               Results of six FPPEs were not reported to the
       requirements.                                        Professional Standards Board. This is a
                                                            repeat finding from the previous CAP review.
 X     Local policy for the use of observation beds       The facility’s policy did not include that each
       complied with selected requirements.                 observation patient must have a focused goal
                                                            for the period of observation or that each
                                                            admission must have a limited severity of
                                                            illness.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
 X     Staff performed continuing stay reviews on at     Three quarters of continuing stay data reviewed:
       least 75 percent of patients in acute beds.        For 2 quarters, less than 75 percent of acute
                                                           inpatients were reviewed.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.




VA OIG Office of Healthcare Inspections                                                                     4
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


 NC            Areas Reviewed (continued)                                     Findings
  X    The cardiopulmonary resuscitation review          Three quarters of Cardiac Arrest Committee
       policy and processes complied with                meeting minutes reviewed:
       requirements for reviews of episodes of care       There was no evidence that the committee
       where resuscitation was attempted.                   reviewed each code episode. This was a
                                                            repeat finding from the previous CAP review.
 X     There was an EHR quality review committee,        Six months of MRC meeting minutes reviewed:
       and the review process complied with               There was no evidence that the committee
       selected requirements.                               provided oversight and coordination of the
                                                            review of the quality of entries in the EHR.
       The EHR copy and paste function was
       monitored.
 X     Appropriate quality control processes were in      The facility did not begin scanning non-VA
       place for non-VA care documents, and the            care results into EHRs until May 2013.
       documents were scanned into EHRs.
 X     Use and review of blood/transfusions              Four quarters of Blood Usage Committee
       complied with selected requirements.              meeting minutes reviewed:
                                                          Clinical representatives from Surgery and
                                                           Anesthesia Services did not attend two of the
                                                           four meetings.
                                                          The results of proficiency testing and
                                                           inspections by government or private entities
                                                           were not reported to the committee.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
 X     Overall, if significant issues were identified,  Corrective actions were not consistently
       actions were taken and evaluated for              followed to resolution for the Inpatient
       effectiveness.                                    Operations Council, MEC, and MRC.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
 X     The facility complied with any additional       VHA policy and 12 months of MEC meeting
       elements required by VHA or local policy.       minutes reviewed:
                                                        Only two quarterly PRC summaries were
                                                         presented to the MEC. This was a repeat
                                                         finding from the previous CAP review.

Recommendations

1. We recommended that processes be strengthened to ensure that actions from peer reviews
are consistently completed and reported to the PRC and that quarterly PRC summary reports
are consistently presented to the MEC.




VA OIG Office of Healthcare Inspections                                                                    5
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


2. We recommended that processes be strengthened to ensure that FPPE results for newly
hired licensed independent practitioners are consistently reported to the Professional Standards
Board.

3. We recommended that the local observation bed policy be revised to include that each
observation patient must have a focused goal for the period of observation and that each
admission must have a limited severity of illness.

4. We recommended that processes be strengthened to ensure that continued stay reviews
are consistently performed on at least 75 percent of patients in acute beds.

5. We recommended that processes be strengthened to ensure that the Cardiac Arrest
Committee reviews each code episode.

6. We recommended that the MRC provide oversight and coordination of the review of the
quality of entries in EHRs.

7. We recommended that the facility continue the recently implemented process for scanning
the results of non-VA purchased care into EHRs and that compliance be monitored.

8. We recommended that processes be strengthened to ensure that representatives from
Surgery and Anesthesia Services consistently attend Blood Usage Committee meetings and
that the results of proficiency testing and inspections by government and private entities are
routinely reported to the Blood Usage Committee.

9. We recommended that processes be strengthened to ensure that actions taken when data
analyses indicated problems or opportunities for improvement are consistently followed to
resolution in the Inpatient Operations Council, MEC, and MRC.




VA OIG Office of Healthcare Inspections                                                                  6
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected the progressive care unit (5S), the intensive care unit, acute medicine unit 4W,
locked MH unit 2S, the emergency department, the CLC (buildings 213 and 215), the primary
care Gold Team, hemodialysis (buildings 500 and 213), and SPS. Additionally, we reviewed
relevant documents, conversed with key employees and managers, and reviewed 30 employee
training and competency files (10 hemodialysis, 10 operating room, and 10 SPS). The table
below shows the areas reviewed for this topic. The areas marked as NC needed improvement.
Any items that did not apply to this facility are marked NA.

 NC           Areas Reviewed for General EOC                                Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.       For the eight areas inspected:
                                                          Ventilation system covers were dusty in four
                                                           areas.
                                                          Housekeeping closets were unlocked in two
                                                           areas.
                                                          Soiled utility rooms were unlocked in six
                                                           areas.
                                                          Emergency call system cords were wrapped
                                                           around handrails in three areas causing the
                                                           system to not activate.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                   7
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


 NC         Areas Reviewed for Hemodialysis                                  Findings
       The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
       Monthly biological water and dialysate testing
       was conducted and included required
       components, and identified problems were
       corrected.
       Contractors received training on bloodborne
       pathogens.
       Contractor hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
 X     Selected EOC/infection prevention/safety            In the building 500 location, we noted
       requirements were met.                               damaged and/or missing laminate near the
                                                            hand washing sink and in the two isolation
                                                            rooms.
                                                           In the building 213 location, an unfinished
                                                            floor repair created a tripping hazard.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training
       and competency assessment.
       Operating room employees who performed
       immediate use (flash) sterilization received
       training and competency assessment.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.




VA OIG Office of Healthcare Inspections                                                                   8
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


 NC     Areas Reviewed for SPS/RME (continued)                               Findings
  X    Selected requirements for SPS                     Sterile storage temperature and humidity level
       decontamination and sterile storage areas         logs for 21 days in August 2013 reviewed:
       were met.                                          For all days reviewed, sterile storage humidity
                                                            levels exceeded the upper threshold of
                                                            60 percent.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

10. We recommended that processes be strengthened to ensure that ventilation system covers
are clean, housekeeping closets and soiled utility rooms are locked, and emergency call system
cords are functional and that compliance be monitored.

11. We recommended that the facility repair the laminate and floor in hemodialysis to ensure
infection prevention and safety standards are maintained.

12. We recommended that processes be strengthened to ensure that SPS sterile storage area
humidity is maintained within acceptable levels and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  9
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of 3 Acting CS Coordinators and 11 CS inspectors and inspection documentation
from 10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache.
The table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                          Findings
  X    Facility policy was consistent with VHA          Facility CS inspection policy reviewed. The
       requirements.                                    policy did not include the following VHA required
                                                        elements:
                                                         Requirement to perform a complete physical
                                                           count of automated dispensing units in the
                                                           inpatient units and clinics during the 1st month
                                                           of each quarter.
                                                         Content of quarterly trend reports provided to
                                                           the facility Director.
                                                         All required drug destruction elements to be
                                                           completed during pharmacy inspections.
 X     VA police conducted annual physical security     Annual physical security surveys for past
       surveys of the pharmacy/pharmacies, and          2 years reviewed:
       any identified deficiencies were corrected.       Pharmacy-related security deficiencies
                                                           identified by VA police in 2011 and 2012 had
                                                           not yet been addressed or corrected.
 X     Instructions for inspecting automated            Automated dispensing machine inspection
       dispensing machines were documented,             instructions reviewed:
       included all required elements, and were          Reconciliation of 1 day’s dispensing from the
       followed.                                           pharmacy to each automated machine was
                                                           not performed.
                                                         Weekly inventory verification of automated
                                                           machines by CS inspectors was not
                                                           performed.
 X     Monthly CS inspection findings summaries         Summary of CS inspection findings for past
       and quarterly trend reports were provided to     6 months reviewed:
       the facility Director.                            There were no quarterly trend reports for the
                                                           past 4 quarters.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.




VA OIG Office of Healthcare Inspections                                                                   10
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


 NC           Areas Reviewed (continued)                                        Findings
  X    CS inspectors were appointed in writing,          Appointments, certifications, and training
       completed required certification and training,    records reviewed:
       and were free from conflicts of interest.          Eight inspectors did not have current CS
                                                            Drug-Diversion Inspection Certifications or
                                                            documented evidence of annual updates or
                                                            training.
                                                          Four inspectors were recently appointed to a
                                                            second term without a 1-year hiatus and had
                                                            conducted monthly inspections prior to being
                                                            removed from the rotation.
 X     Non-pharmacy areas with CS were inspected         Documentation of 10 CS areas inspected during
       in accordance with VHA requirements, and          the past 6 months reviewed:
       inspections included all required elements.        Seventeen of the 60 (28 percent) monthly
                                                           inspections were not documented as
                                                           completed.
 X     Pharmacy CS inspections were conducted in         Inspection documentation for the past 6 months
       accordance with VHA requirements and              for the four pharmacy areas (inpatient vault,
       included all required elements.                   inpatient Omnicell, outpatient, and pharmacy
                                                         receipt) and the emergency drug cache
                                                         reviewed:
                                                          Five of the 24 monthly pharmacy inspections
                                                           were not documented as completed.
                                                          Three of the 6 monthly emergency drug cache
                                                            inspections were not documented as
                                                            completed.
                                                          There was no evidence in monthly inspections
                                                            of verification of the audit trail for destruction
                                                            of 10 randomly selected drugs and no
                                                            evidence of quarterly verification of drug
                                                            destruction.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

13. We recommended that facility policy be amended to include elements required by VHA
policy related to physical counts of automated dispensing units, quarterly trend reports, and
pharmacy drug destruction.

14. We recommended that managers initiate actions to address identified security deficiencies
and that processes be strengthened to ensure that all deficiencies identified during annual
physical security surveys are addressed and corrected.

15. We recommended that processes be strengthened to ensure that 1 day’s dispensing from
the pharmacy to each automated unit is consistently reconciled and that compliance be
monitored.




VA OIG Office of Healthcare Inspections                                                                     11
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


16. We recommended that processes be strengthened to ensure that CS inspectors perform
weekly inventory verifications of automated dispensing machines and that compliance be
monitored.

17. We recommended that processes be strengthened to ensure that quarterly trend reports are
completed and provided to the facility Director.

18. We recommended that processes be strengthened to ensure that all CS inspectors have
current CS Drug-Diversion Inspection Certification and that inspectors receive annual updates
and/or refresher training and that compliance be monitored.

19. We recommended that processes be strengthened to ensure that inspectors do not exceed
the 3-year term limit and are given a 1-year hiatus before being reappointed and that
compliance be monitored.

20. We recommended that processes be strengthened to ensure that all required
non-pharmacy areas with CS are inspected monthly and that compliance be monitored.

21. We recommended that processes be strengthened to ensure that all
pharmacy areas, including the emergency drug cache, are inspected monthly and that
compliance be monitored.

22. We recommended that processes be strengthened to ensure that inspectors perform drug
destruction and audit trail verification and that compliance be monitored.

23. We recommended that the facility Director consider consulting with Pharmacy Benefits
Management to ensure the facility’s CS inspection program complies with VHA policy.




VA OIG Office of Healthcare Inspections                                                                 12
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA




Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 40 EHRs of patients who had PCCT consults (including
20 HPC inpatients), and 30 employee training records (12 HPC staff records and 18 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. The area marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC                     Areas Reviewed                                      Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
X      HPC staff and selected non-HPC staff had           There was no evidence that 15 non-HPC staff
       end-of-life training.                               had end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.




VA OIG Office of Healthcare Inspections                                                                 13
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


 NC            Areas Reviewed (continued)                                   Findings
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

24. We recommended that processes be strengthened to ensure that all non-HPC clinical staff
who provide care to patients at the end of their lives receive end-of-life training.




VA OIG Office of Healthcare Inspections                                                                 14
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 28 EHRs of patients with pressure ulcers (9 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
9 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected three patient rooms. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                     Areas Reviewed                                      Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                 In 19 of the applicable 27 EHRs, staff did not
       documenting location, stage, risk scale score,      consistently document the location, stage,
       and date acquired.                                  and/or risk scale score.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
 X     If the patient’s pressure ulcer was not healed     Four of the applicable eight EHRs did not
       at discharge, a wound care follow-up plan was       contain evidence of wound care follow-up
       documented, and the patient was provided            plans at discharge.
       appropriate dressing supplies.                     Six of the applicable eight EHRs did not
                                                           contain evidence that patients received
                                                           dressing supplies prior to discharge.




VA OIG Office of Healthcare Inspections                                                                 15
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


 NC            Areas Reviewed (continued)                                   Findings
       The facility defined requirements for patient
       and caregiver pressure ulcer education, and
       education on pressure ulcer prevention and
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

25. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, and/or risk scale score for all patients with pressure ulcers
and that compliance be monitored.

26. We recommended that processes be strengthened to ensure that all patients discharged
with pressure ulcers have wound care follow-up plans and receive dressing supplies prior to
being discharged and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                 16
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and MH).6

We reviewed relevant documents and 32 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for acute medical/surgical
unit 4EAD, CLC unit 213-2, and MH unit 2WAB for 52 randomly selected days (holidays,
weekdays, and weekend days) between October 1, 2012, and March 31, 2013. The table below
shows the areas reviewed for this topic. The area marked as NC needed improvement. Any
items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                        Finding
       The facility completed the required steps to
       develop a nurse staffing methodology by the
       deadline.
       The unit-based expert panels followed the
       required processes and included all required
       members.
       The facility expert panel followed the required
       processes and included all required members.
       Members of the expert panels completed the
       required training.
 X     The actual nursing hours per patient day met       Unit 213-2’s average actual nursing hours per
       or exceeded the target nursing hours per            patient day was below the target for all three
       patient day.                                        groups of days reviewed.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

27. We recommended that the nurse manager reassess the target nursing hours per patient
day for unit 213-2 to more accurately plan for staffing and evaluate the actual staffing provided.




VA OIG Office of Healthcare Inspections                                                                 17
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


MH Residential Rehabilitation Treatment Program
The purpose of this review was to determine whether the facility’s Domiciliary Care for
Homeless Veterans Program and general domiciliary residential rehabilitation treatment
program complied with selected EOC requirements.7

We reviewed relevant documents, inspected the two programs in buildings 214 and 217, and
conversed with key employees. The table below shows the areas reviewed for this topic. Any
items that did not apply to this facility are marked NA. The facility generally met requirements.
We made no recommendations.

NC                     Areas Reviewed                                        Findings
      The residential environment was clean and in
      good repair.
      Appropriate fire extinguishers were available
      near grease producing cooking devices.
      There were policies/procedures that
      addressed safe medication management and
      contraband detection.
      Monthly MH Residential Rehabilitation
      Treatment Program self-inspections were
      conducted, documented, and included all
      required elements, work orders were
      submitted for items needing repair, and any
      identified deficiencies were corrected.
      Contraband inspections, staff rounds of all
      public spaces, daily bed checks, and resident
      room inspections for unsecured medications
      were conducted and documented.
      Written agreements acknowledging resident
      responsibility for medication security were in
      place.
      The main point(s) of entry had keyless entry
      and closed circuit television monitoring, and all
      other doors were locked to the outside and
      alarmed.
      Closed circuit television monitors with
      recording capability were installed in public
      areas but not in treatment areas or private
      spaces, and there was signage alerting
      veterans and visitors that they were being
      recorded.
      There was a process for responding to
      behavioral health and medical emergencies,
      and staff were able to articulate the
      process(es)




VA OIG Office of Healthcare Inspections                                                                 18
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


NC             Areas Reviewed (continued)                                     Findings
      In mixed gender units, women veterans’ rooms
      were equipped with keyless entry or door
      locks, and bathrooms were equipped with door
      locks.
      Medications in resident rooms were secured.
      The facility complied with any additional
      elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 19
                                CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA



     Review Activity with Previous CAP Recommendations 

Follow-Up on EOC Issues
As a follow-up to recommendations from our previous CAP review, we reassessed facility
compliance with N95 respirator fit testing and MH unit staff environmental hazards training.8

N95 Respirator Fit Testing. VHA requires facilities using N95 and other types of respirators to fit
test designated employees annually. As of August 19, 2013, of the 912 designated employees,
183 (20 percent) were overdue for annual fit testing.

Environmental Hazards Training. VHA requires that all staff who work on locked inpatient MH
units receive annual training on the environmental hazards that represent a threat to suicidal
patients. Of the 210 employees who worked on locked MH units, 180 (86 percent) received
their last training in 2010, and 20 (10 percent) received their last training in 2011.

Recommendations

28. We recommended that processes be strengthened to ensure that all designated employees
complete annual N95 respirator fit testing and that compliance be monitored.

29. We recommended that processes be strengthened to ensure that all employees who work
on locked MH units complete annual environmental hazards training and that compliance be
monitored.




VA OIG Office of Healthcare Inspections                                                                 20
                            CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA
                                                                                            Appendix A


       Facility Profile (West Los Angeles/691) FY 2013 through
                               July 2013a
Type of Organization                                                       Tertiary
Complexity Level                                                           1a-High complexity
Affiliated/Non-Affiliated                                                  Affiliated
Total Medical Care Budget in Millions                                      $883.3
Number (through August 2013) of:
    Unique Patients                                                       80,504
    Outpatient Visits                                                     1,045,720
    Unique Employeesb                                                     4,247
Type and Number of Operating Beds:
    Hospital                                                              316
    CLC                                                                   352
    MH                                                                    296
Average Daily Census:
    Hospital                                                              218
    CLC                                                                   178
    MH                                                                    256
Number of Community Based Outpatient Clinics                               9
Location(s)/Station Number(s)                                              Santa Barbara/691GB
                                                                           Gardena/691GC
                                                                           Bakersfield/691GD
                                                                           Los Angeles/691GE
                                                                           East Los Angeles/691GF
                                                                           Antelope Valley/691GG
                                                                           San Luis Obispo/691GK
                                                                           Santa Maria/691GL
                                                                           Oxnard/691GM
VISN Number                                                                22




a
    All data is for FY 2013 through July 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                             21
                            CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA
                                                                                            Appendix B


                             VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient scores for quarters 3–4 of FY 2012 and quarters 1–2 of FY 2013
and overall outpatient satisfaction scores for FY 2012.

Table 1

                     Inpatient Scores                                 Outpatient Scores
                    FY 2012     FY 2013                                   FY 2012
                  Inpatient        Inpatient       Outpatient     Outpatient       Outpatient         Outpatient
                  Score            Score           Score          Score            Score              Score
                  Quarters 3–4     Quarters 1–2    Quarter 1      Quarter 2        Quarter 3          Quarter 4
    Facility      56.1             66.0            47.5           50.5             49.5               43.6
    VISN          61.9             65.0            51.5           52.6             53.4               50.7
    VHA           65.0             65.5            55.0           54.7             54.3               55.0



                          Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2009, and June 30, 2012.d

Table 2

                                   Mortality                                     Readmission
                 Heart Attack     Heart           Pneumonia       Heart Attack    Heart           Pneumonia
                                  Failure                                         Failure
    Facility     13.2             8.7             12.3            *               *               *
    U.S.
    National     15.5             11.6            12.0            19.7            24.7            18.5
     * No data is available from the facility for this measure.




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                            22
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA
                                                                                       Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs 	                                 Memorandum


       Date: 	         October 15, 2013

       From: 	         Director, Desert Pacific Healthcare Network (10N22)

       Subject: 	      CAP Review of the VA Greater Los Angeles Healthcare
                       System, Los Angeles, CA

       To: 	           Director, Los Angeles Office of Healthcare Inspections
                       (54LA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I concur with the findings and recommendations in the report of the
          Combined Assessment Program Review of the VA Greater Los
          Angeles Healthcare System Los Angeles, CA (Report No, not yet
          assigned), Recommendation 1–29.

       2. If you have any questions regarding our responses and actions to the
          recommendations in the draft report, please contact me at
          (562) 826-5963.




       Stan Johnson, MHA, FACHE

       Attachment




VA OIG Office of Healthcare Inspections                                                        23
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs 	                                 Memorandum


       Date: 	         October 3, 2013

       From: 	         Director, VA Greater Los Angeles Healthcare System
                       (691/00)

       Subject: 	      CAP Review of the VA Greater Los Angeles Healthcare
                       System, Los Angeles, CA

       To: 	           Director, Desert Pacific Healthcare Network (10N22)

       1. I have reviewed and concur with the findings and recommendations in
          the report of the Combined Assessment Program Review.

       2. Should you have further questions or comments, please contact
          Ms. Joan Lopes, Chief, Quality Management, at (310) 268-3565.

       Sincerely,

               (original signed by:)
       Donna M. Beiter, R.N., M.S.N.




VA OIG Office of Healthcare Inspections                                                        24
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
actions from peer reviews are consistently completed and reported to the PRC and that
quarterly PRC summary reports are consistently presented to the MEC.

Concur

Target date for completion: March 31, 2014

Facility response: Medical Staff office will ensure that peer review actions with
assistance from QM are consistently completed and reported in the quarterly reports to
MEC. 


Recommendation 2. We recommended that processes be strengthened to ensure that

FPPE results for newly hired licensed independent practitioners are consistently 

reported to the Professional Standards Board. 


Concur

Target date for completion: January 31, 2014

Facility response: Credentialing & Privileging office will review all newly hired licensed
independent practitioners to assure that FPPE is available for presentation to the
Professional Standards Board. 


Recommendation 3. We recommended that the local observation bed policy be 

revised to include that each observation patient must have a focused goal for the period 

of observation and that each admission must have a limited severity of illness. 


Concur

Target date for completion: November 30, 2013

Facility response: GLA Observation Bed Policy will be revised by UM section to include
1) goal for observation period along with 2) limited severity of illness category.




VA OIG Office of Healthcare Inspections                                                        25
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


Recommendation 4. We recommended that processes be strengthened to ensure that

continued stay reviews are consistently performed on at least 75 percent of patients in 

acute beds. 


Concur


Target date for completion: January 31, 2014 


Facility response: Monitor continued stay reviews daily to ensure that target of 75% of 

acute patient population are reviewed.


Recommendation 5. We recommended that processes be strengthened to ensure that

the Cardiac Arrest Committee reviews each code episode. 


Concur


Target date for completion: March 31, 2014 


Facility response: The Cardiac Arrest Committee is being reviewed for new 

membership. Developing a clear process of review of codes will be on the agenda with

the revised committee with quarterly reports to MEC. 


Recommendation 6.         We recommended that the MRC provide oversight and 

coordination of the review of the quality of entries in EHRs. 


Concur


Target date for completion: March 31, 2014 


Facility response: MRC will monitor and coordinate reviews of EHR quality. Minutes will 

provide evidence that quality of entries have been reviewed and included in MRC 

reports to MEC. 


Recommendation 7. We recommended that the facility continue the recently

implemented process for scanning the results of non-VA purchased care into EHRs and 

that compliance be monitored. 


Concur


Target date for completion: March 31, 2014 


Facility response: Monitoring of scanned results on non-VA purchased care into EMR’S 

will be done on a weekly basis and results submitted to QM on a monthly basis. 


Recommendation 8. We recommended that processes be strengthened to ensure that

representatives from Surgery and Anesthesia Services consistently attend Blood Usage 





VA OIG Office of Healthcare Inspections                                                        26
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


Committee meetings and that the results of proficiency testing and inspections by
government and private entities are routinely reported to the Blood Usage Committee.

Concur

Target date for completion: February 28, 2014

Facility response: Surgery and Anesthesia will ensure that representatives attend Blood
Usage Committee. Pathology and Laboratory will ensure that proficiency testing results
and other inspections by governmental and private entities are reported and captured in
the minutes of the committee.

Recommendation 9. We recommended that processes be strengthened to ensure that
actions taken when data analyses indicated problems or opportunities for improvement
are consistently followed to resolution in the Inpatient Operations Council, MEC, and
MRC.

Concur

Target date for completion: March 31, 2014

Facility response: Executive Leadership, in conjunction with QM, will ensure that actions
are consistently documented for identified problems or issues and followed up until
resolved.

Recommendation 10. We recommended that processes be strengthened to ensure
that ventilation system covers are clean, housekeeping closets and soiled utility rooms
are locked, and emergency call system cords are functional and that compliance be
monitored.

Concur

Target date for completion: March 31, 2014

Facility response: We will monitor compliance with keeping ventilation system covers
clean, housekeeping and soiled utility rooms locked and emergency cords functional.

Recommendation 11. We recommended that the facility repair the laminate and floor
in hemodialysis to ensure infection prevention and safety standards are maintained.

Concur

Target date for completion: January 31, 2014

Facility response: Hemodialysis laminate and floor will be repaired.




VA OIG Office of Healthcare Inspections                                                        27
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


Recommendation 12. We recommended that processes be strengthened to ensure
that SPS sterile storage area humidity is maintained within acceptable levels and that
compliance be monitored.

Concur


Target date for completion: March 31, 2014 


Facility response: Humidity levels in SPS sterile storage area will be monitored to

ensure readings are within acceptable levels.


Recommendation 13. We recommended that facility policy be amended to include

elements required by VHA policy related to physical counts of automated dispensing 

units, quarterly trend reports, and pharmacy drug destruction. 


Concur


Target date for completion: January 31, 2014 


Facility response: The GLA policy will be amended to include elements required by VHA 

policy related to physical counts of automated dispensing units, quarterly trend reports 

and pharmacy drug destruction.

Recommendation 14. We recommended that managers initiate actions to address
identified security deficiencies and that processes be strengthened to ensure that all
deficiencies identified during annual physical security surveys are addressed and
corrected.

Concur

Target date for completion: January 31, 2014

Facility response: Identified security deficiencies in annual physical security surveys will
be addressed and corrected. Evidence of compliance will be collected and maintained.

Recommendation 15. We recommended that processes be strengthened to ensure
that 1 day’s dispensing from the pharmacy to each automated unit is consistently
reconciled and that compliance be monitored.

Concur

Target date for completion: January 31, 2014

Facility response: Reconciliation of one (1) day’s dispensing from the pharmacy to each
automated unit will be conducted and monitored for compliance.




VA OIG Office of Healthcare Inspections                                                        28
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


Recommendation 16. We recommended that processes be strengthened to ensure
that CS inspectors perform weekly inventory verifications of automated dispensing
machines and that compliance be monitored.

Concur

Target date for completion: March 31, 2014

Facility response: Weekly inventory for automated dispensing machine by CS
inspectors will be conducted and written verification of the inspection will be available
for review. 


Recommendation 17. We recommended that processes be strengthened to ensure 

that quarterly trend reports are completed and provided to the facility Director. 


Concur

Target date for completion: March 31, 2014

Facility response: Quarterly trends reported to the Director will be completed and
evidence of completion will be maintained.


Recommendation 18. We recommended that processes be strengthened to ensure 

that all CS inspectors have current CS Drug-Diversion Inspection Certification and that 

inspectors receive annual updates and/or refresher training and that compliance be 

monitored. 


Concur


Target date for completion: March 31, 2014 


Facility response: All CS inspectors will have current Drug-Diversion Inspection

Certification with annual updates and/or refresher training. Records will be maintained 

to ensure compliance. 


Recommendation 19. We recommended that processes be strengthened to ensure 

that inspectors do not exceed the 3-year term limit and are given a 1-year hiatus before 

being reappointed and that compliance be monitored.


Concur

Target date for completion: March 31, 2014

Facility response: The CS Coordinator will maintain a schedule to ensure inspectors do
not exceed 3-year term with indication of 1-year hiatus.




VA OIG Office of Healthcare Inspections                                                        29
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


Recommendation 20. We recommended that processes be strengthened to ensure
that all required non-pharmacy areas with CS are inspected monthly and that
compliance be monitored.

Concur


Target date for completion: March 31, 2014 


Facility response: All non-pharmacy areas with CS will be inspected monthly and

documented evidence of compliance will be available.


Recommendation 21. We recommended that processes be strengthened to ensure 

that all pharmacy areas, including the emergency drug cache, are inspected monthly

and that compliance be monitored. 


Concur


Target date for completion: March 31, 2014 


Facility response: All pharmacy areas with CS, including the emergency cache, will be 

inspected monthly and documented evidence of compliance will be available.


Recommendation 22. We recommended that processes be strengthened to ensure 

that inspectors perform drug destruction and audit trail verification and that compliance 

be monitored. 


Concur


Target date for completion: March 31, 2014 


Facility response: CS inspectors will conduct drug destruction and audit trail verification 

reviews. Evidence of compliance will be available.


Recommendation 23. We recommended that the facility Director consider consulting 

with Pharmacy Benefits Management to ensure the facility’s CS inspection program

complies with VHA policy. 


Concur


Target date for completion: March 31, 2014 


Facility response: Program manager has initiated consultation with Pharmacy Benefits

Management to ensure CS program compliance with VHA policy. 





VA OIG Office of Healthcare Inspections                                                        30
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


Recommendation 24. We recommended that processes be strengthened to ensure
that all non-HPC clinical staff who provide care to patients at the end of their lives
receive end-of-life training.

Concur


Target date for completion: March 31, 2014 


Facility response: All non-HPC clinical staff who provide care will receive end-of-life 

training and documented evidence of compliance will be available.


Recommendation 25. We recommended that processes be strengthened to ensure 

that acute care staff accurately document location, stage, and/or risk scale score for all 

patients with pressure ulcers and that compliance be monitored. 


Concur


Target date for completion: March 31, 2014 


Facility response: Acute care staff will accurately document location, stage and/or risk 

scale score for all pressure ulcer patients and documented evidence of compliance will 

be available. 


Recommendation 26. We recommended that processes be strengthened to ensure 

that all patients discharged with pressure ulcers have wound care follow-up plans and 

receive dressing supplies prior to being discharged and that compliance be monitored. 


Concur

Target date for completion: March 31, 2014

Facility response: All discharged pressure ulcer patients will have wound care follow-up
plans and receive dressing supplies prior to discharge. Written evidence of compliance
will be available. 


Recommendation 27. We recommended that the nurse manager reassess the target 

nursing hours per patient day for unit 213-2 to more accurately plan for staffing and 

evaluate the actual staffing provided. 


Concur

Target date for completion: March 31, 2014

Facility response: The target nursing hours/day for Unit 213-2 will be reassessed to
ensure staffing plan reflects actual staffing. Evidence of reassessment will be provided.




VA OIG Office of Healthcare Inspections                                                        31
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA


Recommendation 28. We recommended that processes be strengthened to ensure
that all designated employees complete annual N95 respirator fit testing and that
compliance be monitored.

Concur


Target date for completion: March 31, 2014 


Facility response: All designated employees will complete the annual N95 respirator fit 

testing. Evidence of compliance will be available. 


Recommendation 29. We recommended that processes be strengthened to ensure 

that all employees who work on locked MH units complete annual environmental 

hazards training and that compliance be monitored. 


Concur


Target date for completion: March 31, 2014 


Facility response: All employees working on locked MH units will complete the annual 

environmental hazards training. Evidence of compliance will be available.





VA OIG Office of Healthcare Inspections                                                        32
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Kathleen Shimoda, RN, Team Leader
Contributors            Daisy Arugay, MT
                        Michael Bishop, MSW
                        Paula Chapman, CTRS
                        Limin Clegg, PhD
                        Keyla Gammarano, RN, MHA
                        Chad Joy, Special Agent
                        Yoonhee Kim, PharmD
                        Mary Toy, RN, MS
                        Julie Watrous, RN, MS
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jackelinne Melendez, MPA
                        Simonette Reyes, RN
                        Victor Rhee, MHS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        33
                       CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Desert Pacific Healthcare Network (10N22)
Director, VA Greater Los Angeles Healthcare System (691/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Barbara Boxer, Dianne Feinstein
U.S. House of Representatives: Karen Bass, Xavier Becerra, Julia Brownley,
 Lois Capps, Tony Cardenas, Judy Chu, Kevin McCarthy, Buck McKeon,
 Grace Napolitano, Lucille Roybal-Allard, Adam Schiff, Brad Sherman, Maxine Waters,
 Henry Waxman


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        34
                             CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA
                                                                                             Appendix G

                                               Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
2
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
   Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
   Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
   September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
   January 17, 2013.
	 Assistant Deputy Under Secretary for Health for Clinical Operations “Interim Guidance for Ventilation
   Requirements in Sterile Processing Service,” memorandum, January 4, 2012.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
   Safety and Health Administration, the National Fire Protection Association, the American National Standards
   Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
   Healthcare Central Service Materiel Management, and the Association for Professionals in Infection Control and
   Epidemiology.
3
  References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
   Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
  References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
   Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                       35
                             CAP Review of the VA Greater Los Angeles Healthcare System, Los Angeles, CA



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
7
  References used for this topic were:
	 VHA Handbook 1162.02, Mental Health Residential Rehabilitation Treatment Program (MH RRTP),
   December 22, 2010.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 Requirements of the VHA Center for Engineering and Occupational Safety and Health and the National Fire
   Protection Association.
8
  The references used for this topic were:
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
   April 11, 2013.
	 Under Secretary for Health, “Respiratory Protection Used for Infectious Disease and Annual Fit-Testing,”
   Information Letter 10-2012-012, August 2, 2012. 




VA OIG Office of Healthcare Inspections                                                                       36
